                   U.S. General Services Administration
                   Office of Inspector General



May 15, 2013

MEMORANDUM FOR THOMAS A. SHA
               COMMISSIONER,

FROM:                   JAMES P. HAYES
                        DEPUTY ASSISTA
                        FOR ACQUISITIO

SUBJECT:                Fiscal Year 2011 Federal Acquisition Service Leadership
                        Conference - Orlando, Florida
                        Memorandum Number A 120130-04

This memorandum provides the results of our survey work as it relates to the subject
conference. This conference was one of several selected for review from the
preliminary report of agency-wide conference activity compiled by the General Services
Administration (GSA) Office of Administrative Services. Our objective was to validate
the agency provided data and to determine whether additional audit or investigative
inquiries are warranted. We are providing comments on how the conference acquisition
and planning procedures did not comply with the Federal Acquisition Regulation (FAR)
or the Federal Travel Regulations (FTR), resulting in a flawed source selection
methodology.

Background

In response to congressional inquiries following disclosures in the Office of Inspector
General's Management Deficiency Report concerning the 2010 Western Regions
Conference, GSA provided interested congressional committees with a listing of GSA
conferences. Since conferences have not historically been tracked as discrete financial
events, supporting data is not accessible from GSA's financial systems. As an
alternative, the GSA Office of Administrative Services initiated an agency-wide data call
in April 2012. Subsequent revisions have improved the accuracy and completeness of
this data. The compiled records include conference name, purpose, GSA business line,
location, number of attendees, and cost data.

Our survey effort attempted to validate a subset of the agency compiled conference
data. The subset is comprised of conferences that:

   •   Occurred after September 30, 201 0;
   •   Had attendance of at least 25 people; and
   •   Incurred total costs of at least $10,000.



                           1800 F Street, NW, Washington, DC 20405
The 2011 Federal Acquisition Service (FAS) Leadership Conference in Orlando, Florida,
is a member of that subset. During our review of the Orlando conference, we identified
a similar, but smaller, conference held in Atlanta, Georgia, several months before the
Orlando conference. Contract files from the Atlanta conference were used as the basis
for developing the acquisition strategy and requirements for the Orlando conference.
Our inquiry into the Atlanta conference disclosed that the procurement process was
flawed and led to a directed procurement to Roberts Business Associates (Roberts).

The procurement for this training was made using a GSA Mission Oriented Business
Integrated Services (MOBIS) schedule task order under special item number (SIN) 874-
4, Training Services. GSA sent a market survey request to three MOBIS schedule
vendors to determine an average cost estimate for the training. This average cost was
used to establish the Independent Government Estimate. Roberts was one of three
vendors to submit a market survey cost estimate.

GSA sent a Request for Quotation (RFQ) and Performance Work Statement (Work
Statement) to MOBIS schedule contract holders with four vendors submitting proposals.
Roberts was one of the vendors who submitted a proposal and was awarded the
conference contract.

Roberts, under its MOBIS contract, provides off-the-shelf or customized off-the-shelf
training packages. The contract identifies course titles, course prices, minimum (4-10)
and maximum (20) limit on participants, and an additional fee per participant over the
minimum up to a maximum of 20 participants. A total of 155 FAS participants attended
the conference.

Finding 1 -The Work Statement was not independently developed.

Due to time restrictions placed on the procurement team to award this task order, 1 the
team contacted the FAS office in Atlanta to request a copy of its contract file
documentation for the Atlanta FAS Leadership Conference held several months earlier.
The team then proceeded to "cut and paste" from the Atlanta RFQ and Work Statement,
which we determined to be flawed ,2 to develop the RFQ and Work Statement for the
Orlando conference.

Roberts employed The Disney Institute as a subcontractor for the purpose of providing
the training as required in the Work Statement. Roberts' proposal included the
statement, "The lists of course objectives and training modules from the Work
Statement are very similar to those already used for courses taught by Roberts and The
Disney Institute." The Disney Institute's on-line course offerings, in some cases, either
matched or closely matched the requirements in the Work Statement.

This creates the appearance that the Orlando acquisition conference team used The
Disney Institute on-line course offerings as a model in developing the Work Statement.

1
See Finding 3.
2
See Audit Memorandum A120130-05, FAS Leadership Conference, Atlanta, Georgia.


                                              2
The GSA schedules program is designed to promote open and fair competition with fair
and reasonable pricing. The RFQ and Work Statement should be structured to allow for
open and fair competition between all schedule contract vendors providing training
services under SIN 874-4.

Finding 2 - Roberts' proposal and contract award was not consistent with its
MOBIS schedule contract or the RFQ.

Roberts' MOBIS schedule contract did not provide for training services of the nature
requested under SIN 874-4; however, The Disney Institute's on-line training offerings
did. As discussed above, the RFQ required training and pricing based on SIN 874-4,
Training Services. However, it appears The Disney Institute developed the proposal
under its commercial pricing model instead of Roberts' MOBIS schedule contract.
MOBIS schedule contract rules governing prime contractor/subcontractor arrangements
require the use of the prime contractor's MOBIS schedule contract pricing, not the
subcontractor pricing. If the contracting officer had compared Roberts' proposal to its
MOBIS schedule contract under SIN 874-4 and the RFQ, the contracting officer should
have recognized inconsistencies with Roberts' proposal. If this comparison had
occurred , Roberts' proposal would have been subject to rejection . Allowing The Disney
Institute to develop the cost proposal is contrary to the purpose of the MOB IS schedule
program to provide for a price already determined to be fair and reasonable as defined
in FAR 8.404(d).

Finding 3 - The procurement team was tasked with awarding the conference
contract within a restrictive time period.

The procurement team was given a very restrictive time period (i.e. , less than 60 days)
to develop the acquisition plan, issue the RFQ , evaluate the bids and award a training
contract for 155 attendees. Planning for this conference began in January 2011 after
FAS Management established the conference dates for April 5-8, 2011 . The Acquisition
Plan was approved on February 8, 2011 , with the RFQ issued on the same date. The
minimum of 10 business days was allowed for proposal submission with proposal
evaluations to be completed 7 days later. Negotiation, contract preparation, review,
clearance, and contract award was planned to be completed within a 5-day period . The
contract award was made on March 4, 2011 , to Roberts/The Disney Institute, thus
giving them one month to develop the training, procure hotel rooms, and for conference
setup.    FAR 7.104(b), under Acquisition Planning General Procedures states,
"Requirements and logistics personnel should avoid issuing requirements on an urgent
basis or with unrealistic delivery or performance schedules, since it generally restricts
competition and increases prices."

As discussed in Finding 1, due to time restrictions placed on the acquisition team to
award this contract, they resorted to "cutting and pasting" from the Atlanta RFQ and
Work Statement which resulted in a flawed procurement.




                                           3
Finding 4- Costs were not considered in conference award.

During its evaluation of proposals, the procurement team rated three of the four vendor
proposals as technically poor and eliminated them from competition at that point.
Robertsffhe Disney Institute was awarded the contract with a technical rating of
excellent. This indicates that the competition may have been restricted since the
requirements in the Work Statement could not be met by other potential vendors. Since
Roberts was the only technically qualified vendor, the cost of the training and travel was
eliminated as a vendor selection factor. In fact, Roberts' proposed costs were
significantly higher than the next highest proposal. Roberts proposed a training cost of
$222,116 with the next highest vendor proposing a cost of $79,784.

We also determined that 58 percent of the conference attendees were from the
Washington, D.C. area and the travel cost to Orlando, Florida, for this conference was
approximately $164,000. FTR Paragraph 301-74.2 requires that all direct and indirect
costs be considered when planning a conference. This would not only include
conference training costs, but also travel costs.

Conclusion

The available evidence appears to indicate that FAS Central Office staff preselected
Roberts and The Disney Institute, directing a procurement using GSA MOBIS schedule
contracts to give the appearance of satisfying FAR competition and price
reasonableness requirements. Since Roberts' MOBIS schedule contract pricing was
not used as the basis for its proposed pricing, its proposal should have been subject to
rejection upon initial review. It was not, giving additional evidence of a directed
procurement.

These observations were made in the course of our survey efforts. They do not derive
from, nor have we conducted, the tests and procedures required under an audit.
Accordingly, we are making no formal recommendations.

This memo will be made available to the independent public accountant and may trigger
additional testing as part of its annual audit of GSA's financial statements. If we can be
of further assistance, please contact me at 202-273-7321.




                                            4
Distribution List

Chief Administrative Services Officer (H)

Assistant IG for Aud its (JA)

Deputy Assistant IG for Investigations (JID)




                                            5
